     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




     Afghanistan’s Control and Audit Office Requires
   Operational and Budgetary Independence, Enhanced
    Authority, and Focused International Assistance to
        Effectively Prevent and Detect Corruption




                                       April 9, 2010



SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office
     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


April 9, 2010

The Honorable Hillary R. Clinton
U.S. Secretary of State

The Honorable Karl W. Eikenberry
U.S. Ambassador to Afghanistan

Dr. Rajiv Shah
Administrator U.S. Agency for International Development

William M. Frej
USAID Mission Director to Afghanistan

This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s review of U.S. and other donor efforts to strengthen the capability of Afghanistan’s
Control and Audit Office (CAO) to deter and prevent corruption. It includes two recommendations to
strengthen the CAO’s capability and capacity. This report is part of a series of audits of U.S. efforts to
combat corruption and strengthen the rule of law in Afghanistan.

A summary of this report is on page ii. This performance audit was conducted by the Office of the
Special Inspector General for Afghanistan Reconstruction under the authority of Public Law No. 110-181
and the Inspector General Act of 1978, as amended. When preparing the final report, we considered
joint comments from the U.S. Embassy Kabul and the USAID Mission to Afghanistan. We also
considered comments from the CAO. All comments indicated concurrence with the findings and
recommendations contained in this report. Copies of the comments are included in appendices II and III
of this report. Finally, we considered technical comments from the World Bank, the U.S. Government
Accountability Office, and the USAID Office of Inspector General.




John Brummet
Assistant Inspector General for Audits
Office of the Special Inspector General
   for Afghanistan Reconstruction

SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                                              Page i
                                                                           SIGAR Audit-10-8                                  April 2010


                      SIGAR
                                                       Special inspector General for Afghanistan Reconstruction

                                                                           Afghanistan’s Control and Audit Office Requires Operational
                  .                                                        and Budgetary Independence, Enhanced Authority, and
    Special Inspector General for Afghanistan Reconstruction               Focused International Assistance to Effectively Prevent and
                                                                           Detect Corruption
 What SIGAR Reviewed
 The strengthening of institutions that oversee and implement anti-corruption measures in Afghanistan is a key operational
 principle of the U.S. Government’s draft Anti-Corruption Strategy for Afghanistan. The United Nations Convention against
 Corruption requires Afghanistan to establish accounting and auditing standards, as well as related oversight. As
 Afghanistan’s Supreme Audit Institution, the Control and Audit Office (CAO) is responsible for auditing the financial
 matters of the government. It has audit authority over state entities within central and provincial governments as well as
 public enterprises, and carries out audits of funds provided to the Afghan government by external donors. This report
 assesses: (1) the CAO’s current capability and performance in fulfilling its mandate, (2) the assistance provided by the
 international community to strengthen the internal capacity of the CAO, and (3) the assistance provided by the U. S.
 Government to strengthen the CAO’s internal capacity. This report is part of a series of audits SIGAR is conducting to
 address U.S. efforts to combat corruption and strengthen the rule of law in Afghanistan. SIGAR conducted this
 performance audit in Kabul, Afghanistan, and in Washington, D.C., from December 2009 to April 2010 in accordance with
 generally accepted government auditing standards.


 What SIGAR Found
 The CAO’s current legislative framework is weak, does not provide the CAO with sufficient independence or authority to
 serve effectively as Afghanistan’s Supreme Audit Institution, and results in conflicting responsibilities, particularly with
 regard to Afghanistan’s Ministry of Finance. The CAO’s current legislative framework does not provide the CAO with
 budgetary or operational independence from the executive branch, and this lack of independence interferes with the CAO’s
 planning, reviewing, and reporting processes. In addition, the CAO’s enabling legislation does not provide the CAO with the
 authority to require audited entities to report on actions taken in response to CAO recommendations, or demand access to
 necessary documents, officials, and premises. Further, current legislation does not require the CAO to report to the
 National Assembly or to publicly release its audit reports. In late 2009, an international working group submitted revisions
 to a draft audit law to the Ministry of Justice (MoJ) that addressed many of these limitations. However, the MoJ’s February
 2010 version of the draft new law did not include many of the group’s substantive revisions.
 Despite significant assistance from the international community—almost exclusively from the World Bank—the CAO
 continues to suffer from severe internal capacity constraints, including a lack of qualified auditors. In addition, while the
 CAO has formally adopted the standards of the International Organization of Supreme Audit Institutions, the CAO relies on
 international advisors and contracted auditors to ensure that some of its audits comply with those standards. Moreover,
 although the U.S. Agency for International Development has provided the CAO with a limited amount of assistance, that
 assistance has been aimed at allowing a few, select CAO management and staff personnel to attend conferences.


 What SIGAR Recommends
 To strengthen the CAO’s capability and capacity, SIGAR recommends that the U.S. Ambassador to Afghanistan: (1) urge the
 Afghan government to enact legislation providing the CAO with sufficient independence and authority to fulfill its
 responsibilities in accordance with internationally recognized audit standards, and (2) develop and implement a capacity
 development plan for the CAO, in cooperation with the CAO and international stakeholders, as part of the U.S.
 Government’s Anti-Corruption Strategy for Afghanistan. In consideration of issues such as CAO’s independence and
 authority, such
              ` a plan should include the identification of funding sources and donor responsibilities for capacity
 development and training; use of existing training possibilities within the U.S. government; and the appointment of expert
 audit mentors and advisors.

 In response to a draft of this audit report, the U.S. Embassy Kabul and the USAID Mission to Afghanistan concurred with
 SIGAR’s findings and recommendations, and outlined planned iactions to address each of the recommendations.
 For more information contact: SIGAR Public affairs at (703) 602-8742 or PublicAffairs@sigar.mil



SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                                                                          Page ii
TABLE OF CONTENTS

Background                                                                                2

CAO’S Current Legislative Framework Does Not Provide CAO with Sufficient
Independence or Authority, and Results in Conflicting Responsibilities                    5

Despite International Assistance, the CAO Has Severe Internal Capacity Constraints       10

U.S. Support to the CAO Has Been Limited                                                 15

Conclusions                                                                              17

Recommendations                                                                          18

Comments                                                                                 19

Appendix I: Scope and Methodology                                                        20

Appendix II: Comments from the U.S. Embassy Kabul and USAID Mission to Afghanistan       21

Appendix III: Comments from Afghanistan’s Control and Audit Office                       23

Appendix IV: CAO’s Budget Structure                                                      25

FIGURES AND TABLES
Figure 1: Control and Audit Office Organization Chart                                     3
Figure 2: Afghanistan’s National Budget Structure                                         4
Table 1: International Assistance to the CAO, 2004 to 2010                               14
Table 2: USAID Direct Assistance to the CAO, 2007 to 2010                                15

ABBREVIATIONS
ANDS        Afghanistan National Development Strategy
ARTF        Afghanistan Reconstruction Trust Fund
CAO         Control and Audit Office
CLRWG       Criminal Law Reform Working Group
GAO         United States Government Accountability Office
GIRoA       Government of the Islamic Republic of Afghanistan
IARCSC      Independent Administrative Reforms and Civil Service Commission
INTOSAI     International Organization of Supreme Audit Institutions
MoF         Ministry of Finance
MoJ         Ministry of Justice
SAI         Supreme Audit Institution
SIGAR       Special Inspector General for Afghanistan Reconstruction
UNODC       United Nations Office on Drugs and Crime
USAID       United States Agency for International Development
SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                            Page iii
      Afghanistan’s Control and Audit Office Requires Operational and Budgetary
     Independence, Enhanced Authority, and Focused International Assistance to
                      Effectively Prevent and Detect Corruption

Corruption in Afghanistan is widely considered to be a systemic, entrenched, and pervasive problem
that threatens public finances, legal order, social and economic prosperity, and national security. For
example, in Transparency International’s 2009 Corruption Perception Index, Afghanistan was ranked
179th out of 180 countries, making it—by that standard—the second most corrupt country in the world. 1
In addition, a recent survey of 12 Afghan provinces by the United Nations Office on Drugs and Crime
(UNODC) found that the average Afghan is more concerned about corruption (59 percent) than
insecurity (54 percent) or unemployment (52 percent). 2 Thirty years of conflict have weakened state
institutions, while the sheer size of international security and development assistance has increased
Afghanistan’s vulnerability to corruption. This presents a risk that could negate the efforts of the
international community and the Government of the Islamic Republic of Afghanistan (GIRoA) to
establish a sound institutional basis for good governance in Afghanistan.

Strengthening the capacity of GIRoA to develop and implement expressed commitments to combat
corruption is an operational principle of the U.S. Government’s draft Anti-Corruption Strategy for
Afghanistan, and GIRoA has several ministerial level departments and offices with a direct, prescribed
role in combating corruption. The Control and Audit Office (CAO), a central agency that reports directly
to the President, should serve an important role in preventing and detecting corruption. As
Afghanistan’s Supreme Audit Institution (SAI), the CAO is uniquely positioned to fight corruption across
GIRoA due to its purview over the whole of GIRoA operations and funds; SAIs play a vital role in holding
governments to account for the stewardship of public funds and in helping to ensure the transparency
of government operations.

This report is part of a series of audits by the Office of the Special Inspector General for Afghanistan
Reconstruction (SIGAR) to address U.S. efforts to combat corruption and strengthen the rule of law in
Afghanistan. It (1) examines the capabilities and performance of the CAO, (2) assesses the assistance
provided by the international community to strengthen the internal capacity of the CAO, and (3)
assesses the assistance provided by the U. S. Government to strengthen the CAO’s internal capacity. To
accomplish these objectives, we reviewed relevant U.S., Afghan, and international laws, conventions,
standards, and development strategies. We also interviewed CAO leadership, advisors, and department

1
  The Corruption Perceptions Index is based on 13 independent surveys given to countries throughout the world,
and indicates the perceived level of public-sector corruption in a country/territory. However, not all surveys
include all countries. The index’s stated confidence range indicates the reliability of the scores, and that—allowing
for a margin of error—we can be 90 percent confident that the true score for Afghanistan lies within this range.
According to the index, the most corrupt country in the world is Somalia.
2
    UNODC, Corruption in Afghanistan: Bribery as Reported by the Victims, January 2010.
SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                                                     Page 1
heads, as well as representatives of U.S. agencies and international organizations. We conducted our
work in Kabul, Afghanistan, and Washington, D.C., from December 2009 to April 2010 in accordance
with generally accepted government auditing standards. A discussion of our scope and methodology is
included in appendix I.


BACKGROUND

The 1981 Control and Audit Law directs for the CAO to organize the audit and control affairs of public
properties. Today, the CAO has audit authority over state entities within the central and provincial
governments as well as public enterprises, and has a core budget of approximately $1.35 million. 3 Key
objectives of the CAO are:

       •   to protect public funds and take action against errors, irregularities, and misuse of public
           property;
       •   to prevent illegal expenditures;
       •   to review the systems of control over government receipts and payments;
       •   to identify fraud and ensure that accused individuals are brought to justice;
       •   to identify shortfalls in the government budget; and
       •   to guarantee the accuracy of aid and grants provided by donor countries. Appendix IV provides
           information on the basic structure of the CAO’s budget.

As of March 2010, the CAO has a total staff of 313 employees. The CAO is authorized 315 positions; 258
are considered to be professional staff, 54 are classified as administrative or general support staff, and
three are military personnel. Figure 1 depicts the organizational structure of the CAO.




3
    CAO’s core budget refers to that part of the CAO’s budget that is derived exclusively from domestic resources.


SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                                                     Page 2
Source: SIGAR analysis of CAO information.


SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office   Page 3
External auditing is the primary responsibility of the CAO. Currently, the CAO focuses on assessing the
financial reporting of GIRoA ministries and compliance with laws and regulations. 4 The CAO certifies the
financial statements of the government and is responsible for carrying out the audit of GIRoA’s national
budget, including the Afghanistan Reconstruction Trust Fund (ARTF). 5 The CAO has auditing authority
over virtually all GIRoA monies, although the standard to which it is required to conduct audits varies.
For example, the CAO is required to audit GIRoA’s core development budget—which is 100 percent
donor-funded—in accordance with international standards, whereas audits of GIRoA’s core operating
budget may be conducted in accordance with less demanding, historically accepted Afghan standards.
Figure 2 depicts the basic structure of GIRoA’s total budget.

Figure 2: Afghanistan’s National Budget Structure
                                                                     Domestic
                                                                   revenues, 9%


                                                  15%
                                        Core operating

                                                         10%
                                            Core development




                                          75%
                                       External
                                                                              External
                                                                           finance, 91%

    Data covers 2002 - 2009.
    Total size of the national budget was $35 billion, over this period.

Source: U.S. Department of Treasury.


In addition, the CAO provides a degree of scrutiny to the internal audit function of GIRoA ministries. For
example, 42 of GIRoA’s line ministries and agencies currently have internal audit departments, 40 of



4
 Due to capacity constraints, the CAO is not able to conduct performance audits. Performance auditing—also
known as value for money auditing—is considered to be a critical activity in identifying corruption in government
spending.
5
 The ARTF is a coordinated financing mechanism administered by the World Bank. It was set up in May 2002 to
help meet Afghanistan’s priority expenditures such as physical reconstruction projects and salaries for civil
servants.


SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                                                  Page 4
which are registered with, and ultimately responsible to, the CAO. 6 Those internal audit departments
that are registered with the CAO must submit their annual audit plans to the CAO for approval, and send
audit reports to the CAO for comment and quality check at the same time reports are sent to the
associated minister for review. The CAO also provides ministerial internal audit departments with audit
guidelines and invites staff from these departments to attend training events whenever available.

Since 2002, GIRoA and the CAO have made progress in establishing a functioning public accountability
system. The external audit function of the CAO has emerged as an important link in the overall public
accountability framework, particularly with its reports on donor funds and its annual audit of the
government’s financial statement (the Qatia). CAO’s work is having some direct, positive effects on
GIRoA operations. For example, as a result of the audits conducted during Solar Year 1388, the Director
of the Public Enterprise Audit Department stated that his department alone has identified
approximately 830 million Afghanis (approximately $17.5 million) that should be returned to GIRoA from
various public enterprises. 7 Of this amount, 330 million Afghanis (approximately $6.9 million) have
already been returned to GIRoA as of January 6, 2010. However, these achievements have been
obtained with a high degree of direct donor assistance, including the use of contracted auditors, and
significant systemic weaknesses remain in the comprehensiveness of the government audit function.
The Afghanistan National Development Strategy (ANDS) has identified improving the performance of
financial management services—public accountability—and capacity building as core to sound
government operations.



CAO’S CURRENT LEGISLATIVE FRAMEWORK DOES NOT PROVIDE CAO WITH SUFFICIENT
INDEPENDENCE OR AUTHORITY, AND RESULTS IN CONFLICTING RESPONSIBILITIES
 The CAO’s original legislative framework is weak, does not provide the CAO with sufficient
independence or authority, and results in conflicting responsibilities. 8 The CAO believes that legislative
reform and effective implementation is critical, and for the past several years it has been assisting the
Afghan Legislature in drafting a new National Audit Law. The adequacies of the laws that govern any SAI
are crucial to ensuring that the SAI has the powers and independence to fulfill its role and mandate.
According to the International Organization of Supreme Audit Institutions (INTOSAI), a strong statutory
framework for an SAI is one that:

      •    Ensures independence and accountability;
      •    Clearly identifies its role, mandate, and approach;
      •    Allows comprehensive access rights;

6
 The Attorney General Office’s Internal Audit Department and the Supreme Court’s Internal Audit Department are
the two internal audit departments not registered with the CAO.
7
    Solar Year 1388 equates to March 21, 2009, to March 20, 2010, in the Western Gregorian calendar.
8
 This is similar to what we found in our recent report on the capabilities and performance of Afghanistan’s High
Office of Oversight, SIGAR Audit-10-2, Afghanistan’s High Office of Oversight Needs Significantly Strengthened
Authority, Independence, and Donor Support to Become an Effective Anti-Corruption Institution, December 16,
2009.


SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                                                  Page 5
     •   Defines reporting requirements;
     •   Defines responsibilities towards employees; and
     •   Places duties of collaboration with other relevant organizations.

In late 2009, the CAO—with significant assistance from the international community—drafted a new
audit law, which is now under review by the Ministry of Justice (MoJ). 9 According to several
international stakeholders, the draft of the new audit law submitted to the MoJ contained revisions
that, if passed, would provide the CAO with the independence, authority, mandate, and requirements to
enable the CAO to serve effectively as Afghanistan’s SAI. However, a copy of MoJ’s draft of the new
audit law obtained by SIGAR in February 2010 may not provide the CAO with sufficient independence or
authority, as it did not include many of these important, substantive revisions.



The CAO Lacks Budgetary and Operational Independence from the Executive Branch
The CAO lacks both budgetary and operational independence from GIRoA’s executive branch. In
February 2009, the United Nations and the INTOSAI recognized the importance of independent and
professional SAIs as a fundamental prerequisite for effective government audit and the prevention of
fraud, corruption, and mismanagement. Moreover, only an SAI that is independent of the executive
branch can deliver added value in helping to solve major challenges such as corruption. However, the
CAO’s current authorizing legislation does not provide the CAO with the requisite independence to be an
effective SAI. According to the World Bank, all of the core principles of SAI independence—established
by INTOSAI—are only partially, if at all, met by the CAO’s current legislative and administrative
framework. With regard to organizational independence, the U.S. Government Accountability Office’s
(GAO) Generally Accepted Government Auditing Standards stipulate that government oversight
organizations are generally presumed to be organizationally independent if—among other things—the
head of the organization is elected or directly appointed or confirmed by a legislative body, is subject to
removal by a legislative body, reports to a legislative body, and is accountable to a legislative body. 10
While it is clear that both international standards and established best practices—as recognized by
INTOSAI and GAO, respectively—highlight the importance of an SAI’s organizational independence, the
CAO’s current legislative framework allowed the Afghan President to appoint the current Auditor
General by Presidential Decree in 2002, and the Auditor General now serves at the leisure of the
President.

CAO’s reviews are subject to executive interference due to its lack of independence. This lack of
independence presents opportunities for the executive branch to limit reviews, scale back findings, and

9
  International stakeholders assisting the CAO in providing the MoJ with revisions to the draft National Audit Law
include the United Nations’ Assistance Mission in Afghanistan, UNODC, the European Police Mission in
Afghanistan, the Afghanistan Justice Sector Support Program, the United States Department of Justice, the
International Trade Administration, and the British Embassy in Afghanistan. Afghan stakeholders assisting the CAO
in providing the MoJ with revisions to the draft National Audit Law, include the Attorney General’s Office, Ministry
of Interior, and Afghan Independent Human Rights Commission.
10
  The U.S. GAO is the SAI of the United States and a member of INTOSAI. GAO’s Generally Accepted Government
Auditing Standards are widely recognized as best practices for the field of government auditing.


SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                                                    Page 6
reduce candor in reporting. For example, according to recent interviews with CAO officials and similarly
noted in a March 2009 United States Agency for International Development (USAID) funded assessment
of corruption in Afghanistan, there has been ongoing interference by the executive branch in setting
audit schedules. 11 Furthermore, Afghanistan’s Auditor General stated that the CAO has been unwilling
to take on audits that could be politically sensitive or may be turned down by the Office of the
President. The USAID-funded assessment adds that issues resulting from CAO’s lack of independence
have been a factor in international donors choosing not to provide the level of support needed to
professionalize and modernize CAO operations.

Additionally, the Ministry of Finance (MoF) directly approves, administers, and executes the CAO’s
budget on a quarterly basis. The current budgeting process has hindered the CAO’s ability to conduct
long-term planning because the CAO cannot be assured of its funding levels from quarter to quarter.



The CAO Lacks the Authority Necessary to Effectively Carry Out Its Mandate
CAO’s enabling legislation does not provide the CAO with the authority to (1) require audited entities to
report on actions taken in response to CAO recommendations, (2) demand access to necessary
documents, officials, and premises, or (3) require the CAO to report to the National Assembly or to
publicly release its audit reports. The environment for an effective SAI requires willingness on the part
of the executive branch to accept and respond to external scrutiny, and to ensure that corrective action
is taken. According to Afghanistan’s Auditor General, there is no real determination across GIRoA
leadership to fight corruption, and CAO’s reports often go unimplemented and unenforced. He also
stated that the CAO does not have the authority to require GIRoA line ministries or the Attorney
General’s Office to reply or take action on report recommendations or corruption referrals. 12 As a
result, members of CAO management staff asserted that the Afghan Attorney General’s Office has
reported back on the progress of only a small percentage of cases CAO has referred to that office.
According to the Director of the CAO’s Public Enterprises Audit Department, his department alone has
referred 40 cases of corruption, fraud, and/or theft to the Attorney General’s Office, but the Attorney
General has only acted on 5 of those cases. The Director added that several of these “pending” 35
referrals involve high-ranking government officials and may involve the Afghan equivalent of millions of
dollars. According to figures provided to SIGAR by the CAO, during a period covering the Afghan Solar
Years 1382 to part of 1388, out of 160 cases referred to the Attorney General, 96 of the cases have been
put on hold by that office. 13

Officials from the Afghan Attorney General‘s Office refuted the CAO’s claim that their office does not act
on or report back to the CAO on the progress of cases. One official from the Attorney General’s office
asserted to SIGAR that every development in every case referred by the CAO is communicated to the
CAO, whether the case is followed up or set aside for insufficient evidence. He added that his office

11
     USAID, Assessment of Corruption in Afghanistan, March 2009.
12
  When a CAO audit uncovers instances of corruption, fraud, or theft, they report these cases to the Attorney
General’s Office for review.
13
     Covering the period March 21, 2003, through August 2009 in the Western Gregorian calendar.


SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                                                 Page 7
strives to complete action on every case within 2 months. According to figures provided by the Attorney
General’s Office, in the period from Afghan Solar Years 1384 to 1387, the Attorney General received 109
cases from the CAO. 14 Of these, 102 cases were completed through legal procedures while 7 are still
under investigation.

Additionally, SAIs can fulfill their roles objectively and independently only if certain operational
conditions are met, including transparency of process and results and full, unrestricted access to
necessary information. The CAO indicated that ministries suffer from a lack of technical capacity, and
further cited numerous occasions when ministries could not locate requested documents or refused to
provide CAO auditors with requested documents or access. CAO management informed SIGAR that
departments and ministries under audit are often non-responsive and do not take action on CAO’s
recommendations, largely because the CAO does not have the legislative authority to compel them to
do so. For example, one audit conducted by CAO (with international technical assistance) of 31
development projects administered and financed by the World Bank reported issues such as significant
delays in the delivery of financial statements, non-submission of Financial Monitoring Reports,
deficiencies in internal controls for identifying and controlling all valid transactions, and inadequate
follow-up action by line ministries on previous audit observations and recommendations. 15

Finally, upon the completion of an audit, the CAO is only required to release its reports to the Office of
the President and the Ministry of Parliamentary Affairs; the CAO is not required by law to provide its
audit reports to the public or National Assembly. 16 Once the Office of the President has received an
audit report, it is the President’s prerogative whether to disclose the report to the National Assembly. It
is widely accepted that the timely public release of audit reports—usually on a webpage for convenience
of access and low distribution costs—helps to strengthen accountability and is a key component to the
effective functioning of an SAI.



The Ministry of Finance and CAO Have Conflicting Responsibilities
According to INTOSAI, a strong statutory framework for an effective SAI is one that clearly identifies its
role, mandate, and approach. According to USAID and the CAO, there is a lack of clarity in existing laws
on the specific roles, responsibilities, and authorities of the CAO and the MOF with respect to internal
auditing. Specifically, in 2005, the Afghan National Assembly passed the Public Finance and
Expenditures Management Law, which complicated the CAO’s statutory framework and created a direct
conflict between the responsibilities of the CAO and the MoF. Article 61 of the Public Finance and
Expenditures Management Law created a fundamental conflict between the responsibilities of the CAO
and the MoF, by giving the MoF’s Internal Audit Department the authority to conduct audits of the
finances of all GIRoA ministries. The CAO has maintained that the MoF does not have oversight
responsibility over other ministries’ internal audit departments. The MoF Internal Audit Department has

14
     Covering the period March 21, 2005, through March 20, 2009, in the Western Gregorian calendar.
15
  This audit was conducted in accordance with the standards prescribed by INTOSAI and International Standards
of Auditing of the International Federation of Accountants.
16
 While not required by law, the Auditor General does—on occasion, and at his discretion—provide reports to the
National Assembly.
SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                                               Page 8
argued that the CAO is responsible for external audits only and that the MoF is responsible for internal
audits.

Following the passage of the Public Finance and Expenditures Management Law , the CAO
recommended to the President that the conflict be addressed and remedied. President Karzai agreed
and established a commission under the chairmanship of the MoJ to address the conflict; the
commission contained representatives from the CAO, MoF, the High Office of Oversight, the Supreme
Court, and the Independent Administrative Reform and Civil Service Commission (IARCSC). After two
meetings, the Commission decided that Article 61 should be changed or removed and that external
audit and internal audit oversight is the exclusive purview of the CAO. MoJ was subsequently charged
with taking the action required to remedy the legislative conflict. However, in 2009 the MoJ ruled in
favor of the MoF because Article 61 was never amended or superseded by another law. Therefore, the
Internal Audit Department of the MoF has jurisdiction over financial audits of all the ministries. 17
Nevertheless, legal experts stated that any new National Audit Law must explicitly address the conflict.
As a result of this and other political conflicts, the MoF has refused to allow CAO auditors to conduct
work in the ministry. In mid-December 2009, the President decreed that the CAO has the right to audit
the MoF, although the CAO has not yet assigned an audit team to do so due to capacity constraints.
According to the CAO, it intends to re-start audit work at the MoF in 2 to 3 months.



MoJ’s Latest Version of Draft National Audit Law Does Not Include Significant Revisions
Recommended by an International Working Group
In December 2009, the MoJ requested the Criminal Law Reform Working Group (CLRWG), chaired by the
UNODC, to review Afghanistan’s draft National Audit Law. To date, however, the MoJ has not accepted
many of the group’s important, substantive revisions that resulted from CLRWG’s review. The CLRWG
proposed significant revisions to the draft that, in its unanimous opinion, would provide the CAO with
the independence and authority required to function as Afghanistan’s SAI. For example, the CLRWG
proposed provisions that, in accordance with international standards for organizational independence,
the Auditor General submit audit reports to the National Assembly and that the Auditor General may be
subject to dismissal by the majority of two-thirds votes of present and voting members of both Houses
of the National Assembly. In addition, according to legal experts from one international organization
involved in the CLRWG, the CLRWG’s recommended revisions more forcefully codify the right of the CAO
to require action and access on the part of line ministries.

However, in February 2010, SIGAR obtained a copy of MoJ’s current draft of the National Audit Law,
which removed many of the CLRWG’s suggested provisions, including those calling for the submission of
audit reports to the National Assembly and making the Auditor General subject to joint dismissal by the
National Assembly. Although MoJ has not issued a final draft of the law for National Assembly or




17
  Parliament recently instructed MoF to recommend changes to Article 61; however, MoF did not submit any of
the requested recommendations.


SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                                             Page 9
Presidential consideration, UNODC legal experts expressed their opinion to SIGAR that the MoJ version
of the draft law will not provide the CAO with sufficient independence and authority. 18



DESPITE INTERNATIONAL ASSISTANCE, THE CAO HAS SEVERE INTERNAL CAPACITY
CONSTRAINTS
The CAO has severe internal capacity constraints and relies heavily on support from foreign consultants
and advisors. The CAO’s staff lack specialization and training—particularly in the areas of professional
standards, English language, and computer skills—resulting in CAO’s inability to independently conduct
audits that meet international standards. 19



The CAO Has Significant Human Resource Challenges
CAO’s difficulty in building internal capacity begins with the overall absence of qualified accountants and
auditors among Afghan nationals; there simply is not a tradition in Afghanistan of public accounting or
auditing. Recruits with modern accounting and auditing educational backgrounds are generally
unavailable within the CAO. 20 There are ongoing efforts on the part of some international organizations
to enhance Afghanistan’s accounting and auditing capacity by providing basic education and training to
Afghans—including CAO staff—thereby providing a more robust applicant pool from which the CAO may
draw talent. For example, the Association of Chartered Certified Accountants is working with Afghan
partners to train and certify Afghans as Certified Accounting Technicians-1; Certified Accounting
Technicians-1 is the lowest certification offered by the association. In July 2008, the association certified
its first group of Afghans. 21 CAO officials stated that, to date, no CAO employee has completed the
program and only two auditors have participated in it, one of whom has already left the CAO for a more
lucrative position with another organization. One major obstacle to participation in the association’s
program is that—while it is free for CAO employees—participation requires excellent English language
skills because the classes and all associated materials are presented in English.



18
  As with any legislation, the draft is unimportant if the final draft is substantively different or if the legislation is
never introduced or signed.
19
  By capacity, we mean the skills, knowledge, and ways of working that make an organization or entity effective.
According to INTOSAI, capacity constraints may include scarce resources, low staff skills, lack of independence, and
underdeveloped public financial management systems within the country—for example, inadequate accounting
systems, limited financial statements, and a lack of familiarity with international accounting and auditing
standards.
20
  Approximately 60 percent of CAO’s professional staff currently have a bachelor’s degree; the majority have
degrees in law or economics.
21
  The Association of Chartered Certified Accountants program meets international standards and normally takes 3
years to complete.


SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                                                          Page 10
Additional external training opportunities for current CAO staff include those offered by INTOSAI and
the World Bank. The CAO has participated in some of these opportunities. For example, in 2008, the
World Bank instituted an Audit Training Program in Afghanistan to train audit organizations in
techniques and methods that are in accordance with international standards; however, the CAO only
sent 12 of its staff to the training, which disappointed the World Bank sponsors, who had hoped for
greater participation. In addition, according to CAO management, many of these external training
programs require individual SAIs to pay costs associated with attendance, and the CAO is not sufficiently
funded to send staff. In addition to external training, the CAO itself is implementing a departmental and
staff strengthening program, and staff training is a component of CAO’s Strategic Plan. Nevertheless,
according to a World Bank assessment on vulnerabilities to corruption, substantial progress especially in
training and competency development is still needed to more closely align the CAO with international
practices. 22

Internal capacity building is also complicated by the fact that the CAO is required to use the Afghan
IARCSC, and associated salary scales, to fill vacancies. This process hampers the CAO’s ability to
independently determine those candidates with the highest cumulative qualifications because the
IARCSC uses a standardized test of candidates—who are deemed to be qualified—to determine the best
qualified candidate. The IARCSC selects the applicant with the highest score for appointment. Once an
appointment is recommended, the CAO develops three screening sheets: a “health” sheet, a security
screening sheet, and a qualification verification sheet. Based on the outcome of these sheets, the CAO
may accept or reject the appointee. According to the CAO, the IARCSC appointee, who received the
highest score on a standardized test and passed CAO’s screening, may not be the best overall candidate
because of the combination of skills required to be a successful auditor.

USAID, CAO, and international organizations have all recognized that the current GIRoA/IARCSC civil
service pay scale is unrealistic for attracting and retaining skilled professional employees. CAO staff
salaries are subject to IARCSC’s guidelines, and the IARCSC’s salary scales are too low to attract new
recruits who possess the requisite qualifications and experience. As a result, entry-level auditors
typically lack education, experience, English language, or technical/professional training. Accounting and
auditing specialists need significant and relevant academic training and practical experience, and
candidates for employment—who meet CAO’s employment criteria—generally receive offers with
higher salaries from other employers. For example, the auditors contracted by CAO to conduct audits of
Afghanistan’s development budget earn between $6,000-$10,000 per month, whereas the highest paid
audit staff within the CAO earn $200 per month. Such salary concerns also result in high attrition rates;
qualified and trained auditors often leave the CAO to pursue more lucrative careers in non-
governmental organizations.



CAO Relies on International Advisors and Contracted Auditors to Conduct Its Audit Work and
Ensure Compliance with INTOSAI Standards
 Adoption of international standards for accounting and auditing provides the basis for competent
financial reporting and transparency. While the CAO has formally adopted INTOSAI standards, the CAO
lacks the capacity necessary to conduct audits in accordance with these standards and relies on

22
     World Bank, Summaries of Vulnerabilities Corruption Assessment, May 2009.
SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                                        Page 11
international advisors and contracted auditors to ensure that some of its audits comply with those
standards. In addition, it is widely recognized that INTOSAI standards are too general to provide
adequate guidance and need the support of more robust and detailed standards, such as the
International Federation of Accountants’ International Audit and Assurance Standards Board’s
International Standards on Auditing. The International Federation of Accountants’ standards are needed
to provide effective guidance and improve the audit work of staff. Furthermore, the application of
international standards requires significant capacities, particularly in terms of professional competence,
organizational independence, and adequate resources and systems. The CAO and international
stakeholders note that CAO’s current staff requires professional, English language, and computer
training; the CAO lacks organizational and budgetary independence; the CAO’s current staffing
authorization does not provide sufficient staff to meet demand; and the CAO lacks modernized systems.
The CAO is unable to independently conduct audits in accordance with international standards and is
wholly reliant on international consultants and advisors to conduct audits that meet such standards.

Because the CAO’s capacity is weak (with its focus limited to basic financial and compliance audits), the
CAO has had to contract with international auditing firms—currently PKF International—using World
Bank funds provided under the Public Financial Management Reform Project to conduct required audits
of donor funds in accordance with international standards. 23 In the opinion of the World Bank, reforms
are most urgently required in the areas of merit-based recruitment, technical and professional training,
English language, computer skills, and performance evaluation. Unless Afghanistan and its international
partners are able to create a program to ensure a sustainable and capable internal capacity in public
accountability, the CAO will continue to depend on foreign expertise and assistance. This dependency
renders the CAO, and Afghanistan, vulnerable to reductions in aid that could cripple the CAO, hamper
external auditing and public accountability within GIRoA, and weaken the government’s ability to
combat corruption.

The CAO is required to audit all of the funds associated with Afghanistan’s development budget, and
these audits must be of a high quality and in compliance with international standards. To conduct audits
of donor funds in accordance with international standards—particularly those provided by the World
Bank through the ARTF—the CAO depends on the assistance, direction, advice, and technological and
operational support provided by international stakeholders, particularly the World Bank. At the present
time, the World Bank supports a team of five international advisors to the CAO plus an additional team
of six international auditors contracted by PKF International. Without these consultants, the CAO would
not be able to effectively audit development budget monies or mitigate the risk of corrupt practices
related to their disbursement and execution. International stakeholders have noted repeatedly that
there is an urgent need for these consultants and advisors to work with Afghan counterparts, and build
the CAO’s internal capacity to, eventually, take over these functions. However, capacity development
within the CAO has been limited and has not been the focus of assistance.

The CAO is receiving considerable assistance from international stakeholders, most notably the World
Bank, whose assistance now accounts for approximately 66 percent of CAO’s total budget and 80
percent of the CAO’s development budget. Since 2004, the World Bank has provided approximately
$13.3 million to the CAO. The World Bank is currently providing assistance through the Afghanistan

23
  PKF International is an international group of independent, autonomous firms of auditors, accountants, and
business advisors. The particular group contracted by the CAO is PKF-London.


SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                                               Page 12
Public Financial Management Reform Project, which is scheduled to run from May 2007 through
December 2010. This program is expected to provide approximately $7.3 million—of the $13.3
million—over this period. Since 2004, World Bank assistance has nearly doubled the CAO’s core
budget. 24 To a great extent, the World Bank is providing the CAO with this funding to ensure that the
CAO can conduct the required audits of Afghanistan’s development budget and all donor funds provided
to GIRoA through the ARTF in accordance with international standards.

The two primary development objectives of the Public Financial Management Reform Project are to
develop an efficient and effective public financial management system and to develop the human
resource capacity of the Ministry of Finance and the CAO to ensure better operation of public financial
management. Nevertheless, internal capacity development has not been the focus of World Bank
assistance. The World Bank and the CAO have used the vast majority of these funds to support a
contractual arrangement with PKF International. Under this arrangement, PKF conducts the audits of
Afghanistan’s development budget. While PKF is contractually obligated to conduct its development
budget audits jointly with CAO staff, the current practice does not develop the internal capacity within
the CAO to conduct these audits independently. For example, PKF auditors have allowed CAO auditors
to collaborate with them and observe their methodologies. However, CAO auditors only participate in
the fieldwork/data collection portion of the audits and they are not exposed to either the planning or
writing phases. According to World Bank and CAO officials, the major focus of World Bank assistance to
the CAO has been to ensure that these mandated audits are conducted in accordance with international
standards, not on building the capacity of the CAO to conduct them independently. 25

In addition to the assistance provided by the World Bank, the United Nations, through the United
Nations’ Development Program, has also provided the CAO with limited direct assistance to support the
CAO’s efforts to build internal capacity. For example, the United Nations’ Development Program has
provided some coaching, advisory services, and training. Nonetheless, the current degree of direct
donor assistance is not considered to be a sustainable situation in the long term and the Auditor General
of Afghanistan has noted that building the internal capacity of the CAO is vital to ensuring the political
stability of GIRoA and strengthening GIRoA’s legitimacy. Table 1 provides a description of the type,
amount, duration, and objectives of international assistance to the CAO over recent years.




24
  The CAO’s core budget is roughly $1.35 million annually, while the World Bank has provided approximately $2
million annually. Under the World Bank’s current assistance program, the Afghanistan Public Financial
Management Project, the World Bank plans to provide $7.3 million in direct assistance to the CAO; the project’s
total budget is $33.4 million.
25
  Moving ahead—for the period December 2010 through 2013—the World Bank is planning to implement a
follow-on Public Financial Management Reform Project to continue to provide technical assistance. This project
will be included in the ARTF (SY) 1389 investment window. The project components are expected to include—
among others—provincial public financial management, internal audit capacity building, and a CAO capacity
building plan. Nonetheless, given the current level and focus of international assistance to the CAO, there is a
belief within the CAO that—without U.S. and international support focused at internal capacity development—the
status quo will remain for the foreseeable future.


SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                                                Page 13
Table 1: International Assistance to the CAO, 2004 to 2010

Donor                   Type of Assistance        Cost and Duration of              Overall Objective(s) of
                                                  Assistancea                       Assistance

The World Bank          Direct Operational        $13.3 million since 2004;         Primary objective: To ensure that all
                        Support                   $7.3 million of which is          donor funding—provided through
                                                  provided under the current        either IDA Grants or ARTF—is
                                                  Afghanistan Public Financial      audited to a high standard.
                                                  Management Reform
                                                  Project, scheduled to run         Secondary objective: To provide
                                                  from 29 May 2007 through          audit advisors and experts. (Under
                                                  31 December 2010.                 the current project, roughly $4
                                                                                    million is used for direct audit
                                                                                    support to fund the contractual
                                                                                    arrangement with PKF
                                                                                    International, $2 million is used to
                                                                                    provide the CAO with operational
                                                                                    advisors, and $1 million for
                                                                                    infrastructure and technological
                                                                                    upgrades.

United Nations          Provision of a Fraud      Approximately $276,157 per        To provide policy advice to CAO’s
Development             and Corruption            year (the position was filled     senior management, develop the
Program                 Detection Technical       between 20 December 2009          capacity of CAO staff to prevent and
Accountability and      Specialist                and 6 January 2010 and is a       detect fraud and corruption, and
Transparency                                      12-month appointment with         manage and coordinate interactions
Program                                           a possible extension up to 18     between the program and CAO.
                                                  months.

United Nations’         Coaching, Advisory        Cost of support is unknown,       Coaching on INTOSAI auditing
Development             Services, Training        between January 2007 and          standards and performance
                                                             b
Program Capacity                                  June 2009.                        auditing; advisory services in
for Afghan Public                                                                   preparation of Strategic
Service Project                                                                     Development Plan and training
                                                                                    needs assessments; performance
                                                                                    audit training for some staff in
                                                                                    India.
Source: SIGAR analysis of information and data from various international stakeholders.

Notes: On March 8, 2010, SIGAR learned that Afghanistan’s Auditor General signed a Memorandum of
Understanding with India’s Supreme Audit Institution; the Auditor General signed this Memorandum of
Understanding during a visit to India in the first week of March 2010. According to the Auditor General, this
Memorandum of Understanding stipulates that the Indian SAI will provide assistance for training both within
Afghanistan and at the Indian SAI.

a
  Assistance amounts are approximated.
b
  United Nations’ Development Program Capacity for Afghan Public Service Project total budget for the duration of
its existence was approximately $7.7 million.



SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                                                       Page 14
US SUPPORT TO THE CAO HAS BEEN LIMITED
USAID is the only U.S. agency that has provided any direct support to the CAO, and, to date, such
support has been modest and has funded conference and training attendance for a limited number of
CAO staff. Table 2 provides a description of the type, amount, duration, and purpose of USAID
assistance to the CAO over recent years:

Table 2: USAID Direct Assistance to the CAO, 2007 to 2010

Type of             Host Organization                   Cost and              Purpose of Assistance
Assistance                                              Duration of
                                                        Assistance a

Conference          Economic Cooperation                $3,562, October 22    Allow CAO AG and one staff member
Attendance          Organization of Supreme Audit       – October 28, 2009    to attend a conference in Turkey
                    Institutions Conference in Turkey

Training            India’s Supreme Audit Institution   $85,247, February     Allow CAO AG and seven professional
Attendance                                              15 – March 1, 2009    staff to attend training related to
                                                                              strengthening the capacity of the CAO

Conference          INTOSAI Meeting in Qatar            $13,127, January 23   Allow CAO AG and two auditors to
Attendance                                              – January 29, 2009    attend the INTOSAI conference in
                                                                              Qatar

Conference          International Congress of           $10,536, November     Allow CAO AG and one advisor to
Attendance          Supreme Audit Institutions          3 – November 12,      attend a conference in Mexico City
                    Conference in Mexico City           2007

Source: SIGAR analysis of USAID data.

Notes: USAID’s Capacity Development Program also contracted with several advisors between 2007 and 2009 (the
end of fiscal year 2009) at a rate of $518 to $638 per day to provide internal audit support to ten GIRoA agencies
and ministries, one of which was the CAO; no advisor was directly assigned to the CAO.

a
    The total cost of direct assistance to the CAO was $112,472 from November 2007 – January 2010.


In addition to the efforts described above, USAID has engaged in informal discussions with the GAO
regarding possible assistance in training CAO staff on professional and technical standards, and
international requirements. 26 To date, no such assistance has been provided. In December 2009, GAO
officials stated that participation in its International Auditor Fellowship Program is the primary way in
which GAO could provide support to the CAO because GAO does not have the dedicated funding or
available staff necessary to provide in-country mentors to the CAO. 27


26
     USAID has often helped fund training and capacity development for international SAIs.
27
  GAO’s International Fellowship Program is its primary capacity-building program. While there is no cost for
participation in the program, participating countries are expected to pay travel and living expenses for the duration
of the 4½-month program that are estimated to be more than $28,000 per participant.
SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                                                  Page 15
USAID Afghanistan’s 2009 assessment of the CAO stated that the CAO lacks the capacity to perform
audits of USAID funds in accordance with international and USAID requirements. International
stakeholders have made similar findings. According to USAID, international stakeholders, and CAO
management, the CAO lacks the technical and professional capabilities (as discussed in previous
sections) to effectively perform this critical function. USAID has indicated that it would be willing to
provide funding for CAO staff to attend training events in other countries to expand their technical and
professional capabilities. The GAO’s International Auditor Fellowship Program is one such training
opportunity in which USAID and CAO have expressed interest in sending CAO staff. GAO’s program,
however, requires participants to have a certain proficiency in English, and the CAO has not yet
nominated any candidates who meet this requirement. 28

In addition, USAID’s Office of Inspector General works with SAIs in many developing countries to expand
their capabilities and provides training in cost principles and fraud awareness. Before an SAI can
conduct audits of USAID monies, it must have both professional capability and independence. As
resources permit, USAID’s Office of Inspector General provides training to SAIs in conducting financial
audits of USAID funds in accordance with USAID guidelines and U.S. government auditing standards.
This training helps build capacity within SAIs to enhance their ability to audit all public funds. USAID’s
Office of Inspector General currently has agreements to provide this training in 21 countries. However,
USAID’s Office of Inspector General has not conducted such training in Afghanistan, citing the need for
more resident auditors to conduct the training. 29 CAO’s lack of independence is also an issue that may
need addressed before the USAID Office of Inspector General provides the CAO with training; although,
according to USAID’s Office of Inspector General, the possibility of providing future training to the CAO
has not been ruled out.

The majority (over 82 percent) of USAID mission in Afghanistan’s projects and programs are currently
implemented through USAID direct contracts and grants. Thus, funds provided under these instruments
do not flow through GIRoA’s financial management system. However, USAID intends to significantly
increase the amount of aid provided directly to, and implemented by, GIRoA. USAID’s Office of Financial
Management recently noted the necessity of providing technical assistance to the CAO to allow GIRoA
to meet USAID requirements and properly discharge its financial oversight responsibilities, stating, the
CAO needs more than the limited support previously provided under USAID’s Capacity Development
Project. 30 The U.S. government’s draft Anti-Corruption Strategy for Afghanistan, the Final Declaration of
the Paris Conference, and the UN Convention against Corruption all state the commitment of GIRoA and
the international community to undertake professional audits, including joint audits, of programs


28
 GIRoA has nominated one candidate, from the Ministry of Defense’s Inspector General’s Office, to participate in
GAO’s program; however, that individual was unable to meet the program’s English language requirement.
29
  On October 26, 2008, USAID’s Office of Inspector General conducted a half-day training exercise in Kabul for 35
employees of various GIRoA ministries and departments, including the Ministries of Finance, Public Health, Rural
Rehabilitation and Development, Education, Communication and Information Technology, and the Control and
Audit Office. The training provided an overview of USAID’s Office of Inspector General’s recipient-contracted audit
program.
30
  USAID Afghanistan, HC-306-09-02, Report on the Assessment of the Capability of the Ministry of Finance, Da
Afghanistan Bank, and the Control and Audit Office in Regard to Managing Direct Donor Assistance, July 27, 2009.


SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                                                 Page 16
financed through Afghanistan’s core and external budgets, and to strengthen government capacity for
audit and financial accountability. The U.S. government has also committed to assist the Afghan
government in implementing programs designed to improve the transparency and accountability of
Afghan government institutions, reduce corrupt practices, and improve financial oversight, all of which
fall directly under the responsibility of the CAO. In addition, USAID’s Economic Growth and Governance
Initiative directly links Afghanistan’s weak audit capacity with governmental corruption. Nevertheless,
USAID officials stated that USAID has not yet developed concrete plans for any direct, sustained
assistance to the CAO. While USAID’s Office of Financial Management is presently drafting a
Management Control Strategy for the oversight of USAID direct funding to GIRoA, the extent to which
this strategy will address assistance to the CAO is unclear.



CONCLUSIONS
At the January 2010 London Conference on Afghanistan, the United States and other donors pledged to
increase the proportion of development aid delivered through the Afghan government to 50 percent in
the next 2 years. This support depends on the Afghan government making progress in several areas,
including strengthening its public financial systems, improving budget execution, and reducing
corruption. As a result of the funds and assistance provided to GIRoA, the U.S. government has a vested
interested in supporting Afghan institutions that can provide the checks and balances necessary to
ensure the accountability and responsiveness of the government to its people. Key anti-corruption
bodies such as the CAO need to be reinforced to hold GIRoA accountable to the people of Afghanistan.
Strengthening the CAO’s capability and capacity would contribute to enhanced transparency and
reduced corruption in Afghanistan. However, building capability and capacity within the CAO depends
largely on the CAO operating under a legislative framework that provides independence and appropriate
powers. In conjunction with legislative reforms, the international community must provide sustainable
assistance that is focused on the capacity development of Afghanistan’s audit professionals. Supporting
an independent and capable CAO will increase public visibility into the operations of GIRoA, promote
transparency and accountability, and empower citizens to demand real change. Further, a strong
demand for good public sector auditing is necessary if the CAO is to make a meaningful impact;
however, this requires willingness on the part of GIRoA’s executive branch to accept, support, and
respond to external scrutiny over its management of public funds and to ensure that corrective
actions—recommended by the CAO—are taken, where appropriate. Further, for the CAO to make an
impact and to secure public support and a belief in the government’s dedication to take effective action
in GIRoA’s fight against corruption, audit reports not deemed law enforcement or national security
sensitive, need to be made available to the public.




SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                                       Page 17
RECOMMENDATIONS


To strengthen the CAO’s capability and capacity, SIGAR is making the following two recommendations:

   1. To help enable the CAO to become an effective supreme auditing institution, SIGAR
      recommends that the U.S. Ambassador to Afghanistan urge the Afghan government to enact
      legislation providing the CAO with sufficient independence and authority to fulfill its
      responsibilities in accordance with internationally recognized audit standards.

   2. To help build the sustainable internal capacity of the CAO, SIGAR recommends that the U.S.
      Ambassador to Afghanistan oversee the development and implementation of a capacity
      development plan for the CAO, in cooperation with the CAO and international stakeholders, as
      part of the U.S. government’s Anti-Corruption Strategy for Afghanistan. In consideration of the
      issues concerning CAO independence and authority, such a plan should include the
      identification of funding sources and donor responsibilities for capacity development and
      training; utilization of existing training possibilities within the U.S. government; and the
      appointment of expert audit mentors and advisors.




SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                                     Page 18
COMMENTS


The U.S. Embassy Kabul and the USAID Mission in Afghanistan provided written comments on a draft of
this report. Those comments are included in Appendix II. The Embassy’s Coordinating Director for
Development and Economic Affairs and the USAID Mission Director concurred with the report’s findings
and recommendations, and noted that an independent and well-functioning Supreme Audit Institution
in Afghanistan is in the best interest of GIRoA and the U.S. Government. In their comments, they
outlined actions they would take to address the report’s recommendations, including:

    •   Addressing the need for legislation that would provide the CAO with the necessary
        independence and authority to fulfill its responsibilities by including this issue in at least one
        meeting with the international community by April 30, 2010; and
    •   Working with the CAO, GIRoA stakeholders, and international donors to formulate and
        implement a capacity development plan for the CAO by June 30, 2010.

The CAO also provided written comments on a draft of this report. These comments are included in
Appendix III. The CAO concurred with the report’s findings and recommendations, emphasizing the need
for legislative reform, functional and operational independence, and capacity development, so it can
better enhance the accountability and transparency of GIRoA through unbiased and credible reporting.

SIGAR also provided a draft of this report to the World Bank and shared relevant sections of the report
with both the USAID Office of Inspector General and the U.S. Government Accountability Office. SIGAR
incorporated their technical comments as appropriate.




SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                                            Page 19
APPENDIX I: SCOPE AND METHODOLOGY

To assess the capabilities and performance of the CAO in fulfilling its mandate, we reviewed relevant
U.S., Afghan, and international laws, conventions, standards, and development strategies, as well as
relevant reports, guidance, and standards issued by U.S. government agencies, international
organizations, and the CAO. We interviewed CAO leadership, advisors and department heads, as well
as officials at the Afghan Ministry of Education and Afghan Attorney General’s Office.

To identify assistance provided by the United States and other donors to strengthen the CAO’s
institutional development, we interviewed and received documentation from officials at U.S.
government agencies and international organizations, including USAID; the Government Accountability
Office; the World Bank; UNODC; the European Police Mission to Afghanistan; the United Nations
Development Program; the Embassy of the United Kingdom in Afghanistan; INTOSAI; and the Asian
Organization of Supreme Audit Institutions.

To assess the effectiveness of U.S. assistance to the CAO, we used information obtained through the
documents and interviews described above and developed conclusions based on that evidence. After
identifying gaps in the CAO legislative framework and operational shortcomings, we compared those
findings with the provision of U.S. assistance to determine whether that assistance might effectively
assist the CAO in filling those gaps and overcoming the shortcomings.

This report is part of a series of SIGAR audits addressing U.S. efforts to combat corruption and
strengthen the rule of law. We conducted work in Kabul, Afghanistan and Washington, D.C. from
December 2009 to April 2010 in accordance with generally accepted government auditing standards.
These standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit objectives. We believe
the evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives. The audit was conducted by the Office of the Special Inspector General for Afghanistan
Reconstruction under the authority of Public Law No. 110-181, and the Inspector General Act of 1978, as
amended.




SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                                       Page 20
APPENDIX II: COMMENTS FROM THE U.S. EMBASSY KABUL AND USAID MISSION IN
AFGHANISTAN




SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                Page 21
SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office   Page 22
APPENDIX III: COMMENTS FROM AFGHANISTAN’S CONTROL AND AUDIT OFFICE




SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office            Page 23
SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office   Page 24
APPENDIX IV: CAO’S BUDGET STRUCTURE
Figure 1 provides information on the basic structure of the CAO’s budget. Specifically, the CAO’s total
budget is divided into two categories, CAO’s core (regular) budget and the CAO’s development budget.
While the CAO’s core budget is funded by GIRoA, the preponderance of CAO’s development budget is
funded by the World Bank, aimed at direct operational support, and supports the CAO’s contractual
arrangement with PKF International.

Figure 1: CAO’s Budget Structure



                                         CAO’s Total Budget




         Core (Regular) Budget                                      Development Budget

   Funded by GIROA (17% of CAO’s Total                        Funded by GIRoA and Donors (82% of
                Budget)                                               CAO’s Total Budget)




                     Buildings/Infrastructure            Assistance to the                  Direct Operational Support
                        Maintenance and                Parliamentary Budget
                           Construction                     Committees                     Funded by World Bank (75% of
                                                                                                CAO’s Dev. Budget)
                    Funded by GIRoA (23% of          Funded by World Bank (4%
                       CAO’s Dev. Budget)              of CAO’s Dev. Budget)



  Source: SIGAR analysis of CAO data.

  Note: The percentages depicted in Figure 1 are approximations based on figures provided by the CAO. Currency
  conversions and rounding may result in percentages that do not add to 100 percent.




(This report was conducted under the project code SIGAR-019A).


SIGAR Audit-10-8 Anti-Corruption/Control and Audit Office                                                Page 25
_________________________________________________________________________________
SIGAR’s Mission               The mission of the Special Inspector General for Afghanistan
                              Reconstruction is to enhance oversight of programs for the
                              reconstruction of Afghanistan by conducting independent and
                              objective audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to provide
                              accurate and balanced information, evaluations, analysis, and
                              recommendations to help the U.S. Congress, U.S. agencies, and
                              other decision-makers to make informed oversight, policy, and
                              funding decisions to:

                                  •   improve effectiveness of the overall reconstruction strategy
                                      and its component programs;
                                  •   improve management and accountability over funds
                                      administered by U.S. and Afghan agencies and their
                                      contractors;
                                  •   improve contracting and contract management processes;
                                  •   prevent fraud, waste, and abuse; and
                                  •   advance U.S. interests in reconstructing Afghanistan.


Obtaining Copies of SIGAR         To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies           SIGAR’s Web site (www.sigar.mil). SIGAR posts all released
                                  reports, testimonies, and correspondence on its Web site.


To Report Fraud, Waste, and       To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan              allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs           reprisal contact SIGAR’s hotline:

                                      •   Web: www.sigar.mil/fraud
                                      •   Email: hotline@sigar.mil
                                      •   Phone Afghanistan: +93 (0) 700-10-7300
                                      •   Phone DSN Afghanistan 318-237-2575
                                      •   Phone International: +1-866-329-8893
                                      •   Phone DSN International: 312-664-0378
                                      •   U.S. fax: +1-703-604-0983



Public Affairs                    Public Affairs Officer
                                     • Phone: 703-602-8742
                                     • Email: PublicAffairs@sigar.mil
                                     • Mail: SIGAR Public Affairs
                                         400 Army Navy Drive
                                         Arlington, VA 22202
